<html>
<title> - [H.A.S.C. No. 113-102] THE 2014 QUADRENNIAL DEFENSE REVIEW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  
                                     
 
                         [H.A.S.C. No. 113-102]

                  THE 2014 QUADRENNIAL DEFENSE REVIEW

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 3, 2014


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     

                                     ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-865                         WASHINGTON : 2014 
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office, http://bookstore.gpo.gov. For more information, contact the 
GPO Customer Contact Center, U.S. Government Publishing Office. 
Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>









                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDREE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, April 3, 2014, The 2014 Quadrennial Defense Review.....     1

Appendix:

Thursday, April 3, 2014..........................................    37
                              ----------                              

                        THURSDAY, APRIL 3, 2014
                  THE 2014 QUADRENNIAL DEFENSE REVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Winnefeld, ADM James A. ``Sandy,'' Jr., USN, Vice Chairman of the 
  Joint Chiefs of Staff, U.S. Department of Defense..............     5
Wormuth, Christine E., Deputy Under Secretary of Defense for 
  Strategy, Plans and Force Development, U.S. Department of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    41
    Smith, Hon. Adam.............................................    43
    Wormuth, Christine E., joint with ADM James A. ``Sandy'' 
      Winnefeld, Jr..............................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Gibson...................................................    57
    Mr. McKeon...................................................    57

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    61
    
    
    
    
    
    
    
    
    
    
    
                  THE 2014 QUADRENNIAL DEFENSE REVIEW

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, April 3, 2014.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen. Before we begin, I want 
to express my condolences to the victims and families of the 
Fort Hood shooter. Though we do not yet know the motivation 
behind this horrific attack, it is a grim reminder that danger 
persists even when our troops come home.
    Our thoughts and prayers are with the victims and their 
families from the Fort Hood community, and I would like to ask 
each of you if you would join me in a moment of silence for 
those families.
    Thank you.
    The committee meets today to receive testimony on the 2014 
Quadrennial Defense Review [QDR]. Joining us today are Admiral 
Sandy Winnefeld, Vice Chairman of Joint Chiefs of Staff, and 
Ms. Christine Wormuth, Deputy Under Secretary of Defense for 
Strategy, Plans and Force Development.
    Thank you both very much for being here today.
    I have called the Department to rewrite and resubmit the 
QDR report, and I intend to include a provision in the upcoming 
NDAA [National Defense Authorization Act] to that effect.
    I appreciate the work that has gone into this year's 
product, and I understand that past QDRs were less than 
perfect. However, I am concerned that these reports have grown 
less compliant with the law, and strayed further from the 
intent of Congress.
    The QDR is meant to be a useful tool for Congress to 
understand the longer-term strategic challenges and 
opportunities facing the Department. It is meant to inform a 
thoughtful debate on our defense strategy and the resources 
needed to fulfill it.
    We recognize that the QDR also drives a valuable internal 
process for the Department. But if it only leads to a 
justification of programs in the budget, then both the 
Department and Congress have lost a major opportunity to bring 
together key national security stakeholders and strategic 
thinkers to discuss and debate how we shape the longer-term 
direction of our forces, their missions, and their 
capabilities.
    Instead, what we have before us this year is, in essence, a 
5-year outlook of validation of a force structure that the 
services admit is driven by budget constraints, and a strategy 
that assumes increased risk to the force.
    Moreover, we have before us a strategy that has not changed 
since the last one was issued in 2012. At the time, General 
Dempsey testified that if the military had to absorb more cuts, 
and I quote--``we have to adjust our strategy.'' Since then, 
the military has absorbed an additional $330 billion in cuts, 
not including sequestration that returns in fiscal year 2016. 
Yet, the strategy before us remains unchanged. It asks our men 
and women in uniform to fulfill all the same missions and 
requirements, but with a smaller force, less capabilities, and 
ultimately, increased risk to those who would go into harm's 
way.
    The strategy sizes the force to simultaneously defeat one 
regional adversary, and deny another. However, in testimony we 
received from the combatant commanders and service chiefs, our 
military under the funding profile for defense currently in law 
can barely muster enough forces to execute even one major 
contingency operation.
    While the QDR recognizes the world is growing more 
volatile, and in some cases, more threatening to the United 
States, it makes no adjustments to reflect that change. For 
example, Russia's invasion of Ukraine and its longer-term 
intentions should cause us to rethink the current QDR tenet 
that suggests cooperation and nuclear reductions will make us 
safer.
    Strong U.S. leadership and influence must be matched by a 
strong military. This was a missed opportunity to communicate 
the linkage between strategy and resources, and the inflection 
point at which the United States finds itself.
    I look forward to your testimony with regard to this issue.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 41.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And I join the chairman in acknowledging and wishing the 
best for the victims of the shooting in Fort Hood. Our thoughts 
and prayers are with them and their families, as regrettably 
another child--another tragedy strikes that base. And this 
committee will work hard to try understand it better and figure 
out what we can do to prevent these in the future.
    So, I thank you for the recognition of that and the moment 
of silence. And I thank our witnesses for being here today to 
talk about the QDR and to talk about our strategy.
    And I think, you know, the largest problem with QDR--and I 
don't disagree with many of the chairman's comments about the 
fact that it is not as informative as it could be. But one of 
the biggest problems is, just in general with all QDRs, is the 
unpredictability of, gosh, 2, 3 years in the future, much less 
15 or 20.
    As the chairman and many others have pointed out, when it 
comes to predicting future national security threats and where 
we are going to have to go to war, we do not have a very good 
record. And I think the reason for that is, the world is 
unpredictable. Things change. Looking that far out into the 
future, the variables significantly outweigh the constants, and 
that makes it difficult to accurately predict.
    I think this time, however, the QDR face the even greater 
challenge of the uncertain budget future. It would be one thing 
if we knew for certain that we were going to have 8 years of 
sequestration--that this was the budget, this was the number, 
and we had to take a step back and look at, okay, what are we 
going to do? I will tell you that that picture would be very, 
very scary in terms of the blow it would make to our national 
security, to our industrial base, and all manner of different 
pieces that are incredibly important to this committee. But we 
can't be certain.
    We were--you know, we had sequestration until we didn't for 
2015--for 2014 and 2015. So, if you are putting together a QDR, 
you are being asked to, you know, understand what the resources 
are, and you don't know what those resources are, that makes it 
a very, very difficult process.
    And, of course, we have what seems like one of the more 
uncertain threat environments that we have had in a long time--
with Iran and North Korea, you know, the metastasization of Al 
Qaeda and their ideology, with what Russia is doing in Eastern 
Europe. And it is a very uncertain time and it makes it very, 
very difficult to predict. So, for the most part, I think any 
limitations that the QDR face is simply because of the 
uncertainty of all of those factors making it difficult to make 
those predictions.
    I will say that the one thing that I have always found 
unfortunate about the QDR is, it does not prioritize very well. 
It does a fairly decent job of weighing out what the threats 
are, and lists a whole lot of different things that we ought to 
be concerned about. But I have always felt, if you have 20 top 
priorities, then you have none. We have to be able to choose 
from among all of those things. And one of the things we look 
for from the QDR is to give us their best expert assumption as 
to out of these multiple different possible threats that we 
face, what are the ones we ought to be most worried about, and 
how should we respond?
    We are not going to hold the folks who put the QDR to that, 
and say that you have to be right. We obviously will adjust as 
we go forward. But the QDR process would be incredibly useful 
if they would take it and say, ``We are going to give you our 
best assumption, based on the facts we have, as to how you 
should prioritize,'' not just say, ``Here is everything you 
ought to be worried about. Go ahead and worry.'' It is better 
if we can prioritize and figure out how to manage risk, which, 
as, you know, all the folks over at the Pentagon always tell 
us, is essentially their job.
    You are not going to eliminate risk. You simply have to try 
figure out what it is and manage it as best as possible. And 
that is more easily done if we make some choices about how to 
prioritize the threats and concerns that we face.
    With that, I look forward to the testimony. I welcome 
Admiral Winnefeld and Mrs. Wormuth here. I look forward to your 
expertise and to the questions and answers as we go forward.
    I yield back, and I thank the chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 43.]
    The Chairman. Who is going first?
    Madam Secretary.

 STATEMENT OF CHRISTINE E. WORMUTH, DEPUTY UNDER SECRETARY OF 
    DEFENSE FOR STRATEGY, PLANS AND FORCE DEVELOPMENT, U.S. 
                     DEPARTMENT OF DEFENSE

    Ms. Wormuth. Thank you, Mr. Chairman.
    Thank you, Representative Smith and members of the 
committee. It is my pleasure to talk with you this morning 
about the Department's 2014 Quadrennial Defense Review. And I 
will try to keep my opening statement pretty brief so we can 
get to questions.
    The 2014 QDR is an evolution of our strategy. The updated 
defense strategy builds on the DSG [Defense Strategic Guidance] 
that the administration put out in 2012, and outlines what our 
joint force needs to be able to accomplish in the next 10 to 20 
years.
    We have tried to lay out our plan to responsibly rebalance 
the military, given changes in the security environment and the 
fiscal environment. We also tried to explain how the Department 
intends to rebalance internally to be more efficient to get 
greater buying power for our dollar and to control cost growth 
into the future.
    The QDR is based on our assessment of the future security 
environment, and it is strategy-driven, as a result. We looked 
out 20 years, considering potential challenges, threats on the 
horizon, and for areas where we can work together with allies 
and partners to address common security issues.
    We also believe we will continue to face a complex and 
uncertain world, one that presents opportunities, but also one 
that poses many threats to our interests, our forces, and our 
friends and allies around the world.
    Based on our assessment of that security environment, the 
2014 QDR builds on the priorities articulated in the 2012 
Defense Strategic Guidance and incorporates them into a broader 
strategic framework.
    The Department's updated strategy emphasizes three pillars: 
protecting the homeland, building security globally, and 
projecting power and winning decisively. These three pillars 
are interrelated and interdependent. We need all three of them 
to be able to successfully protect and advance our national 
interests.
    To execute the strategy effectively, the joint force must 
be capable of conducting a broad range of activities at any 
given time. It is not enough to be capable of defeating an 
adversary and denying the objectives of another aggressor if 
deterrence fails. Our forces must also be able to protect the 
homeland, to assure and deter around the world in multiple 
regions, and conduct persistent counterterrorism operations. 
Our updated force planning construct in the QDR reflects the 
full breadth of these demands.
    To ensure that we can execute our QDR strategy and the 
force planning construct, we are rebalancing the force, making 
tradeoffs among capability, capacity, and readiness.
    Because of the readiness challenges we have had in the last 
few years, the Department has had to make especially tough 
choices balancing between capacity and capabilities.
    Key decisions in the President's fiscal year 2015 budget 
proposal include reducing capacity in ground forces, reducing 
or eliminating capacity in single-mission aviation platforms, 
and undertaking some temporary ship layups. We are also 
protecting key investments, particularly in the areas of cyber 
capability, space, and special operations forces, to name a 
few.
    Overall, the QDR puts forth an updated national defense 
strategy that we believe is right for the country. At the 
President's budget level, which does ask for more resources 
than if sequestration were to continue, we believe we can 
execute the strategy, although with increased risk in certain 
areas.
    These risks would grow significantly, however, if we return 
to sequestration-level cuts in fiscal year 2016, if proposed 
reforms in the area of compensation, for example, are not 
accepted, or if uncertainty about budget levels continues. And 
the QDR report, as you know, outlines these potential risks in 
some detail.
    Mr. Chairman, I thank you--Representative Smith--for the 
opportunity to talk with you today, and for the continued 
leadership of this committee. I look forward to your questions.
    [The joint prepared statement of Ms. Wormuth and Admiral 
Winnefeld can be found in the Appendix on page 45.]
    The Chairman. Thank you.
    Admiral.

 STATEMENT OF ADM JAMES A. ``SANDY'' WINNEFELD, JR., USN, VICE 
   CHAIRMAN OF THE JOINT CHIEFS OF STAFF, U.S. DEPARTMENT OF 
                            DEFENSE

    Admiral Winnefeld. Chairman McKeon, Ranking Member Smith, 
distinguished members of the committee, thanks also for the 
opportunity to be with you today. I also thank you, sir, for 
your sentiments regarding the tragedy of Fort Hood yesterday 
afternoon. We are working very hard to take care of the victims 
and the families, and we will ultimately get to the bottom of 
what went wrong at Fort Hood yesterday. But thank you so much 
for your concern.
    I would like to set the stage by saying that Chairman 
Dempsey and I believe that strategy, including QDR strategy, is 
mostly about balancing ends, ways, and means, and then 
assessing the resultant risk. We try very hard, the two of us, 
to keep this balance in mind.
    We believe that the most fundamental ``ends'' of any 
national defense strategy boil down to our enduring national 
security interests. The chairman has derived those interests 
from the President's 2010 National Security Strategy. He has 
articulated them in his QDR endorsement. And he has used them 
as the structure of the Chairman's Risk Assessment. So, they 
are very useful.
    It is our duty to protect those interests against the 
threats we foresee in the current and future security 
environment--threats that become more opaque as we look deeper 
into the future, but all of which appear to be accelerating 
their employment of new technology.
    The ``ways'' of our strategy are how we do our job. They 
are what we believe our force needs to be able to do, and that 
can be found at the macro level in the QDR's force planning 
construct.
    Ways are also how we do our job, such as our operational 
plans and concepts, and, in fact, the ways we run the 
Department.
    Regarding ``means,'' Bernard Brodie said that strategy 
wears a dollar sign. The means of our strategy are the 
resources we are provided by the United States Congress, and 
how together, we invest those resources in the capability, 
capacity, and readiness of our forces and the structure that 
supports those forces.
    Now, every strategy--every balanced combination of ends, 
ways, and means--lives inside a band of risk. Because assessing 
risk is as much art as it is science, it is imprecise, 
imperfect, and subjective, and is usually articulated in 
adjectives that are hard to describe.
    A strategy that falls out of balance implies increased 
risk. If we want to retain the same ends, but our means 
decrease dramatically, then we have to try to restore strategic 
balance by either finding better ways, or trying to obtain more 
means, or we have to accept a bit more risk in our ends.
    I believe all three are exactly what we are doing in this 
QDR. So, a key question is, exactly how much risk are we 
accepting? I would say that risk should be considered to a 
strategy in two layers.
    The first layer is what I would call ends/ways risk. 
Whether our ends--our enduring national security interests--are 
adequately protected by the ways that we have constructed.
    This QDR's ways--the what and how of our efforts in both 
peacetime and wartime--are based on the strategic defense 
guidance published in 2012. And if properly resourced, we 
believe they will protect our national security interest ends 
within that moderate risk band. There is always more we can do, 
but we believe we have this about right.
    The next layer, I would say, is what I would call ways/
means risk. Whether the ways of our strategy are executable 
within the means we are provided. During the Strategic Choices 
and Management Review last spring, we found that this 
strategy's ways are not executable at moderate risk at the 
Budget Control Act [BCA] level of funding. We simply won't have 
enough modernized and ready stuff in our force to get all the 
jobs done, both in the near and the long term. In short, we 
will be out of balance.
    So, we had a choice. With reduced means, we could have 
down-scoped the strategy's ways to align with BCA funding 
levels, and accepted a good deal more risk to our ends. But 
that really would be a purely budget-driven strategy, and none 
of us want that.
    Instead, we submitted a QDR that says what we need to do 
and what that requires, and a budget request that, if resourced 
over the next 5 years, will provide the additional means we 
need to execute the ways that will protect our national 
security ends, thus keeping the strategy in balance, albeit at 
higher aggregate risk than the President's fiscal year 2014 
budget request.
    Mr. Chairman, as Chairman Dempsey says in his QDR 
endorsement, ``If our elected leaders reversed the BCA cap 
soon, and if we can execute the promises''--meaning the ways--
``of the QDR, then I believe we can deliver security to the 
nation at moderate risk.''
    To be candid, I would describe that higher aggregate ways/
means risk as pushing very hard on the high edge of the 
moderate band. Certainly higher than in the President's 2014 
budget request.
    Now, just like my kids have an aggregate grade point 
average, but some of their grades are higher or lower than 
their average, QDR risk is low in some areas, and in other 
areas, it actually exceeds the moderate band.
    There are four relevant points here. First, if the higher 
areas of risk were against a highly ranked national security 
interest--and remember, that is what the ends are--like 
protecting our homeland against catastrophic attacks, then we 
probably would have assessed the aggregate level of risk as 
being outside the moderate band. Fortunately, that is not the 
case. And we will soon provide our assessment--the chairman's 
assessment of risk--against specific national security 
interests in the classified Chairman's Risk Assessment.
    Second, readiness risk in the near term is higher than 
moderate, because we are still recovering from the effects of 
the precipitous drop in funding we experienced last year, due 
to sequester, as well as the fact that we need to reset from 
two wars.
    You have probably heard from our combatant commanders on 
this, because the near term is where they live.
    The BBA--Budget--or the Bipartisan Budget Act--is simply 
not enough in fiscal year 2015 to get us back on track as fast 
as we think we should. And the Opportunity, Growth, and 
Security Initiative would certainly be helpful in repairing 
that. But in the QDR 20-year long term, we believe that we will 
eventually be able to match readiness to the eventual size of 
our force.
    Third, the future risk level associated with our budget 
submission depends on Congress approving the combination of 
capabilities, capacities, and readiness we have requested, as 
well as the important proposals we are making for efficiencies 
and compensation. This budget is fragile. As more items are 
changed, the impact will ripple through and distort our force, 
and could quickly push us out of the QDR moderate risk band.
    And fourth, our ability to continue to innovate 
technically, tactically, and in our business practices, will be 
an important factor that helps keep us inside the moderate 
band. This has to occur across many different areas deeply and 
quickly, and will require us to be more willing to reward risk-
taking and promote creative leadership.
    Finally, I want to mention that one of the most important 
themes that I think distinguishes this QDR from others, as the 
chairman and I see it, is that of rebalance. And I am not just 
talking about rebalance to the Pacific. This is about rebalance 
across the entire Department in six key areas, including 
rebalancing the wars for which we prepare and how we do that; 
rebalancing our efforts regionally; rebalancing capability, 
capacity, and readiness within our force, which is out of 
balance now; rebalancing tooth and tail; rebalancing Active and 
Reserve; and rebalancing compensation.
    We are going to need considerable help from Congress to 
make these rebalance initiatives happy. And I am happy to 
discuss them as need be, either here or in private.
    As always, thank you for your enduring support to the men 
and women we have serving in uniform. And thank you again for 
the opportunity to speak this morning, and I do look forward to 
your questions.
    Thank you, sir.
    [The joint prepared statement of Admiral Winnefeld and Ms. 
Wormuth can be found in the Appendix on page 45.]
    The Chairman. Thank you very much.
    One of the things that has been a little perplexing to me 
is when the Secretary and the chairman came up and presented 
the budget, they presented it in a way, I think, that leads to 
confusion. In other words, they said that if sequestration 
kicks back in--no, they said the budget will take us down to 
440,000 to 450,000 in the Army, and down to 175,000 the 
Marines--or 184,000 the Marines, unless sequestration comes 
back. And then in that case, it would go down to 420,000, 400, 
and 175,000 for the Marines.
    And to me, I think, you know, we deal with this all the 
time here, so we kind of understand all the nuances and so 
forth, but I don't think the American public gets it. I think 
the media ran stories immediately that the Army was going to be 
taken down to 440,000 or 450,000.
    No. My understanding is, sequestration is the law. As much 
as I dislike it, it is the law. And it does kick back in again 
in 2016. And unless we face the fact of how dire that will be, 
there is very little chance of changing it. And so, when we say 
440,000, 450,000, instead of the reality of the 420,000 or the 
175,000, and taking down a carrier, taking down cruisers--all 
of this--I think we--I don't understand why we don't lay out 
the reality, as dire as it is right now, to try to get the 
American people to understand how serious this is.
    Can you explain to me that strategy?
    Admiral Winnefeld. No, I think you are on to something. You 
are exactly correct that it is important that the American 
people understand the difference between Budget Control Act 
levels and the levels at which we submitted. They are 
significant. We intentionally crafted this so that we could 
point out what that difference is.
    I can rattle them off by memory, most of them. The 
difference between those two levels is 50,000 to 60,000 
ground--Army ground troops, both Active and Reserve. It is 
about 7,000 Marines difference. It is a large number of ships 
that we will not be able to purchase. It is an additional F-35 
squadron. We have to get rid of all the KC-10s in the near 
term.
    We will lose 10 ISR [intelligence, surveillance, and 
reconnaissance] orbits, which is about 30 platforms, to make up 
those 10 orbits. We will lose significant amounts of research, 
development, and engineering to promote our future force. We 
are going to lose a bunch of readiness. And that, taken in the 
aggregate, if removed from this submission, will definitely 
kick us out of the moderate risk band that this QDR portrays.
    So, it is stark. It is real. And, Mr. Chairman, the BCA 
level is not enough to execute this strategy. The ways/means 
risk that I described falls out of the band.
    The Chairman. It just seemed to me that would have been 
less confusing if that were just--if it were just the budget as 
it is, because this is something that the House, the Senate, 
agreed to. We actually got back to regular order somewhat, 
where they had a conference, and they came up with a final 
solution, signed it. Sent it to the President. He signed it. 
And it is the law going forward. And it gave us 2 years, which 
brought a little--a little certainty, and put a little money 
back into defense from sequestration levels.
    If the budget had just been presented, that this is the way 
it is, and it is going to take us down to 420,000--it is going 
to take all of those reductions that you have mentioned--I 
think people could focus on that. But the way it was presented, 
it was just kind of like, this is the way it will be unless we 
follow the law. And I just don't think they get those nuances. 
And I was a little disappointed in that, and will continue to 
try to talk about those differences.
    Building just a little on what Ranking Member Smith talked 
about--if you have 20 priorities, you know--I think your 
statement was, if you have 20, you don't have any priorities. 
So, to me, there is one overriding issue that really is 
bothering me. I would like to know, as the two of you went 
through this process--and, Admiral, you have been doing this 
for a long time now. And you look at--if you were to say what 
is the greatest risk in potential loss of life, casualties, 
that confronts us today, where would you say that is in the 
world?
    Admiral Winnefeld. That is a good question, Mr. Chairman. 
We tend to think in terms, first, of risk to interests. And 
then specific areas of the world that affect those interests. 
So, clearly, the highest national security interest the 
chairman and I believe we have is the survival of our Nation, 
followed by prevention of catastrophic attacks--read terrorist 
attacks like 9/11, or a nuclear missile coming from a rogue 
state, or something like that.
    So, in terms of the highest risk to American people that is 
out there in the world, it would be one of those two high 
national security interests that would be threatened. But we 
also feel that the capabilities and the capacities we have in 
place and that we have programmed keep that risk very 
manageable.
    We are working very hard, as you know, on missile defense. 
We have a very strong nuclear deterrent that we are 
maintaining. We have got some work to do there, as some of the 
members are very well familiar with those issues. But I think 
we are okay there.
    So, you start to work into other areas where we have 
interests, such as secure, confident, reliable allies and 
partners. There are a lot of places in this world where those 
are threatened--where our allies are threatened. We have just 
seen it happen with our NATO [North Atlantic Treaty 
Organization] allies, who are now nervous about what is going 
on in Eastern Europe. There is the constant threat in the 
Pacific, and the Korean Peninsula and the like.
    So, that is sort of the middle strategic interests for us 
that are constantly at risk.
    In terms of American lives, though, we have always 
prioritized defending the homeland. I think we are in a pretty 
good moderate risk band there. I hope that helps.
    The Chairman. The thing I am most concerned about right now 
is the Korean Peninsula. Because I think--you know, we had the 
briefing this week with General Scaparrotti. And I have been to 
Korea a few times. And I just--I see the unstableness there. 
Plus, how many people, both Koreans and Americans, live very 
close to the DMZ [demilitarized zone], and are under--they are 
targeted right now by all of their artillery, let alone the 
other tools that they have. And if something blew up there, I 
would think the loss of life in hours and days would be so 
high, compared to any other threat that I see around the world 
right now. That is just something that is really bothering me.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Just a couple comments 
on, you know, part of the challenge of what you have put 
together there, and, you know, the notion of why didn't you 
just budget to sequestration.
    Well, two answers to that. First of all, yes, sequestration 
from 2016 forward is the law of the land. But sequestration for 
2014 and 2015 was the law of the land, as well, until it 
wasn't. So, if you budget all that and then you got to reverse 
back around--so, you guys are sort of trying to guess as to 
what it is that we are going to send you in terms of the 
budget, and I don't think you are going to win either way. 
Because the other thing that I will point out is the thing that 
I have consistently heard from the other side of the aisle in 
this committee is harsh criticism of you in the Pentagon for 
letting the budget drive your strategy. And, you know, if you 
had come out and said, ``Well, sequestration is the law of the 
land. Therefore, here is what we are going to do,'' I can only 
imagine that the volume of that criticism would be even greater 
than it is. You know, ``How dare you put out a budget, you 
know, that does not protect our national security,'' and 
``Admit that you did it only because that is what the budget 
required.''
    So, you are kind of damned if you do and damned if you 
don't. So, I have a little bit of sympathy for you trying to 
figure out which way to go on that front. And, frankly, what 
you did, I think, is fairly logical. Which is to say that you 
put out a budget that said, ``Okay, this is the amount of money 
we have, and we know that. But here is the amount of money that 
we feel we need to hit our strategy.'' That was reflected both 
in the $28 billion in additional defense spending that was put 
into fiscal year--well, it was requested for fiscal year 2015 
with offsets, and then also in FYDP [Future Years Defense 
Plan]--I think $150 billion--I could be off on the number--over 
5 years, saying--you basically were saying, ``Look, we know 
that the amount of money that Congress is allowing us means 
that we will not be able to meet our strategy. And the budget 
will drive it. It is not our decision to have the budget drive 
that, it is Congress' decision. And if you want to give us the 
amount of money to meet our strategy, here it is.''
    Why everyone in the media and everyone is so perplexed by 
that is beyond me. I think it is perfectly logical what you did 
and why you did it. And we don't know what is going to happen. 
You know, the chairman and I and a lot of others are going to 
fight very hard and try to make sure that sequestration doesn't 
happen for 2016 going forward. And you have to be prepared as 
best as you can for those eventualities. And that is part of 
what has made the last 4 years so very difficult at the 
Pentagon, is from one week to the next, from one month to the 
next, you don't have any idea how much money you are going to 
have.
    So, hopefully, we can get you some consistency on that. But 
I think what has come out has--you know, has made sense in what 
is a chaotic environment.
    The one question I wanted to ask about in terms of the 
QDR's vision of the future is dealing with the terrorist 
threat, and specifically with the various offshoots of Al 
Qaeda. And I think we all, you know, the narrative is pretty 
clear now that the good news is Al Qaeda's senior leadership, 
some of them are centralized organizations, when we have been 
able to successfully target and significantly degrade their 
ability to plan transnational terrorist attacks.
    And I don't think that should be disputed. The bad news is 
that the ideology that they propose has metastasized in a whole 
bunch of different places. Certainly in North Africa, you know, 
Mali, and Libya is falling apart. We are seeing it in Syria and 
Iraq and elsewhere.
    And in each one of these areas it is hard to know exactly 
what the threat is. We know that there are groups there that 
are sympathetic to an ideology that threatens us. We do not in 
many cases know how strong they are.
    Are they locally focused primarily trying to drive that 
ideology to control a given country or a given part of that 
country, or are they transnationally focused? We have seen this 
come out of Syria. There are all kinds of speculation that the 
Al Qaeda affiliated groups or Al Qaeda-like groups in Syria are 
potentially planning transnational threats, but we don't know.
    How does the QDR reflect what our best strategy is for 
confronting that? Because I still believe that is the greatest 
threat that we face. I am worried about North Korea. I am 
worried about Iran. I am worried about Russia.
    But right now there is only one group out there that has 
still actively declared war and declared their intention to 
bring direct harm to U.S. citizens and our interests, and that 
is Al Qaeda and their affiliates.
    So what is our best strategy going forward to confront that 
metastasizing threat?
    Ms. Wormuth. Congressman, I think we very much share the 
assessment that you just laid out of the terrorist threat and 
the fact that it is spreading and that it is not a one-size-
fits-all challenge in different regions.
    We have an approach that has sort of a couple of elements I 
would say. First, we will of course continue to have the 
capacity, the capabilities to conduct direct action where we 
need to. And that is an important part of our strategy. We are 
continuing to make investments to ensure our capability to do 
that.
    It is one of the reasons why we protected and continue to 
allow some growth in our special operations forces almost up to 
70,000. But another important piece of that is working with 
partners in places like Yemen, for example, to try to build up 
their own organic capability to do more themselves to fight the 
terrorist threat in their country.
    So part of what we are doing, and it is I think consistent 
with the rebalance theme that the admiral laid out, is to 
rebalance a little towards putting more emphasis on building 
partnership capacity than we have in the last 10 years.
    I also would say part of what Admiral McRaven's vision is, 
is as we draw down out of Afghanistan and bring back some of 
our special operations forces, we will be able to distribute 
them around the world again very much to focus on being able to 
again try to draw down the threats in places like North Africa 
for example and build partnership capacity with countries.
    So that is an important part of our strategy. And Admiral 
McRaven works very closely with combatant commanders like 
General Rodriguez in AFRICOM [U.S. Africa Command], for 
example, to have sort of a comprehensive strategic approach to 
that.
    Mr. Smith. And for my part, I think that building partner 
capacity is perhaps the most important part of this, is finding 
allies in regions as we have successfully done in the Horn of 
Africa with Ethiopia, Uganda, Kenya. They have been very, very 
helpful to us. And having a local face on security is obviously 
far better than having U.S. presence and is also cost effective 
for us as well.
    I would say the one piece of that that we really need to 
emphasize is building a cooperative model in each of these 
countries between--and I think SOCOM [U.S. Special Operations 
Command] is going to be the lead in a lot of this. I think the 
MLEs [Military Liaison Elements] that they send out there have 
the potential--they have been very effective in some places.
    I think they have the potential to be even more effective. 
The key to that effectiveness is building a meaningful 
partnership with the State Department and with intel. And I 
have been to a lot--some countries like Yemen, perfect. Well, 
perfect is a strong word. It works well. You know, the 
ambassadors bought in. The chief of stations bought in and they 
are all working together.
    I have been to other countries where, you know, the chief 
of mission looks at the MLE and the SOCOM presence like, I 
don't know who these people are. I don't know what they are 
doing in my country and I am not happy about it.
    So building a better partnership between those three 
elements I think can give us a very low-cost, light footprint, 
locally driven way to contain this very significant threat.
    Thank you very much. I appreciate your testimony. I yield 
back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. Admiral, I have 
been around for all the QDRs so far and I have become 
increasingly skeptical that there is any value in this 
exercise. If we were to have a provision that repealed the 
statutory requirement for QDR, what would your advice be about 
whether that would be a good or bad thing?
    Admiral Winnefeld. Obviously it would create a lot less 
work in the Department. But I think, as Chairman McKeon rightly 
pointed out, this is a valuable process for the Department. It 
is valuable I think for any new administration to go through.
    It is a good forcing function for us as a Department to 
have to congeal our thinking, our intellectual power into one 
place. So I would not want to suggest that you just repeal the 
need for a QDR at all. It is a very useful document. And we 
have found, I think as you know, we have a saying in the 
military. It is not the plan. It is the planning.
    The Strategic Choices and Management Review that laid down 
so much of the groundwork for this QDR was an incredibly 
valuable process. Ash Carter was right and Secretary Hagel was 
right to ask us to do that last spring. So I wouldn't encourage 
deleting the requirement.
    Mr. Thornberry. And you think that planning would not occur 
otherwise?
    Admiral Winnefeld. I think it would, sir. We go through 
this every year in our budget process and that sort of thing. 
But it does force us into a little longer look. It is a little 
bit more of a joint process. So again, we may at the 
committee's and certainly on the other House of Congress look 
at ways to improve it. That is a potential project. I don't 
have any great thoughts on that, but I do think that it is a 
valuable process to do every 4 years.
    Mr. Thornberry. The statute says that the QDR has to 
identify the budget plan to provide sufficient resources to 
execute the full range of missions at a low to moderate level 
of risk. And you have said several times that we barely stay 
within the moderate range of risk.
    I wrote--this phrase was great. Pushing hard on the high 
edge of moderate, you said. How is that not just playing word 
games to fit within a statute? Because pushing hard on the high 
edge of moderate----
    Admiral Winnefeld. I think that gets to the definition of 
risk. And one of the things I think we can do better as a team 
here, Congress and DOD [Department of Defense], is to define 
what we mean by risk. Because as I said earlier in my remark, 
the words we use, the adjectives we use are ill-defined. They 
are hard to understand and hard to articulate.
    We do have definitions for those terms, and I do believe we 
are at the edge of moderate risk, but we are in moderate risk 
right now. It is not going to take too much. Certainly going 
down to the BCA level of funding would kick us out of that band 
fairly quickly.
    Mr. Thornberry. I think the point about we use the word 
risk a lot and it is kind of a vague term that doesn't have 
much meaning is exactly right. Would you say that we took 
some--what level of risk would you say we took as far as Russia 
returning to a more aggressive policy in invading one of its 
neighbors?
    Admiral Winnefeld. It is hard to define that. We do have 
the rebalance that we have talked about where we maintain our 
emphasis in the Middle East and shift a little bit more 
intellectual and force posture emphasis to the Pacific. But 
remember, we are calling that a rebalance, not a pivot. I very 
pointedly want to make sure we call it a rebalance.
    Pivot implies turning your back on your former partner, 
what have you. We have a strong partnership in NATO. It is a 
good alliance. There is a lot of good military capability in 
that alliance. We are still very much committed to that 
alliance. And as you I am sure know, we have paid very close 
attention to the situation in Ukraine and what it means for all 
of Europe.
    So yes, I think it fits in the strategy. It was a surprise. 
It is something that has caused us to think hard about this, 
but we are still committed in the long term. Again, a 20-year 
term that you look through a QDR lens at. Russia is relatively 
weak economically and demographically and other ways. There 
are--you know, China on the other hand in the Pacific is rising 
economically and in other ways. And so I think in that long-
term lens we are still in the right place.
    Mr. Thornberry. Well, you may have just answered my last 
question. My question is would you expect that we would have 
written--you all would have written this QDR differently if the 
Russian invasion of Crimea had happened sooner?
    Admiral Winnefeld. I think it would be disingenuous to say 
nothing would have changed in the QDR. I think global current 
events clearly shape the words that we put into a QDR. I would 
not deny that. I don't know that it would change anything 
fundamentally in the QDR, but it might change some of the tone. 
I would leave that to one of the principal authors to elaborate 
on. But I think we generally have that right, but it was 
certainly an unwelcome event at the time we were publishing 
this document.
    Mr. Thornberry. Thank you, Chairman.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you both for 
being here. And Ms. Wormuth, why don't I let you follow up on 
that quickly in terms of the piece with Russia and the extent 
to which we--we certainly weren't looking at Europe as an area 
of crisis as much as a link with NATO and other allies.
    Ms. Wormuth. Thank you, Congresswoman. I would agree with 
Admiral Winnefeld that while we probably would have added some 
additional sentences to talk more pointedly about the situation 
with Russia, fundamentally I don't think we would have changed 
the strategy. And I would argue that our strategy is cast in a 
way that allows us to be able to deal with the emerging 
situation in Europe.
    We do talk in the QDR about the importance of the Europeans 
and NATO, the alliance, as one of our fundamental partners in 
global security, and we talk about our bedrock commitment to 
Euro-Atlantic stability.
    And I think, you know, as we monitor the situation and make 
decisions about what steps we may need to take going forward, 
we are able to do that I think within the framework that we 
have outlined in the QDR. And I think it is very important to 
underscore that we do talk about our strategic approach to Asia 
as a rebalance because we are not taking our eye off the ball. 
As a global power, we can't afford to focus solely on one area.
    Mrs. Davis. Thank you. And actually Admiral, I wanted to 
follow up with the rebalance. And I understand that--the 
difference between that and pivot, but I also think--and if we 
think about a rebalance to the Pacific, you raise a certain 
amount of expectations. And my sense is that in many ways we 
may not have been--we may not always be able to follow up on 
what that expectation is.
    And the rebalance itself suggests to those in the region 
that maybe they have to do something different, that we are--
so, could you talk a little bit more specifically about that? 
Because sometimes I think we may be signaling without 
necessarily wanting to create a counterpoint.
    Admiral Winnefeld. Sure, there----
    Mrs. Davis. China, obviously thinks so.
    Admiral Winnefeld. A whole host of thoughts come to mind 
when you ask that very good question. One of the things we hear 
from our ASEAN [Association of Southeast Asian Nations] 
friends, and I have dinner with their ambassadors on a 
quarterly basis, just because it is kind of a special project, 
is we really like having you there. Just don't start anything.
    And they really--the whole region really values American 
presence and integrity, as it were, in the western Pacific, 
because it does bring stability to that region. I even think 
the Chinese value having us there to a certain degree.
    You know, they don't want us too close, but they--I think 
they, to a certain degree, value having the United States in 
that region.
    Nothing that I know of in our budget submission is changing 
our commitment to the rebalance to the Pacific. We still have a 
lot of projects going on there, and we are still committed to 
our allies in the region. And that is why Secretary Hagel is in 
Hawaii right now, talking to the ASEAN ministers. The President 
is traveling in the region twice this year.
    So I think that intellectual and posture commitment is 
still there.
    Mrs. Davis. Okay. Well, I would encourage sometimes, 
perhaps--I don't know if there is a another way of talking 
about that, but sometimes it feels like we can be perceived 
differently if we are not able to follow through with our 
commitments.
    Going back to the QDR for a second, and the cost savings, 
because we are obviously very concerned about personnel issues 
here. BRAC [Base Closure and Realignment] is important. And I 
know that there are assumptions in the QDR about those issues 
moving forward to some degree, and whatever that may be.
    So where do they really address the deficiencies that you 
would like to see in terms of resources? Can you be more 
specific about how that comes together and where--you know, 
where does that--if those assumptions are not met, where does 
the risk grow?
    Ms. Wormuth. Congresswoman, I think that is a great 
question.
    For example, built into the President's budget over the 
FYDP, over the 5-year period, are about $30 billion in 
compensation savings, for example. And there is about--while 
there are upfront costs associated with BRAC, if Congress gives 
us that authority, eventually we will save about $2 billion 
annually with the base closure process.
    So if we are not able to gain support for either the 
package of compensation reforms or to get BRAC authority, we 
would then have to find those savings elsewhere because they 
are built into the budget.
    And essentially that would mean we would either have to go 
back into readiness, which, again, I think is something we are 
very much trying to protect; capacity, further reducing the 
size of the joint force beyond what we have already put forward 
in the President's budget; or in terms of our capabilities, our 
modernization programs, our investments to try to counter anti-
access/area denial to us, for example.
    So we are very concerned. And I think Admiral Winnefeld 
mentioned that in his opening statement, that this is sort of a 
delicate package we have put together and if we don't get all 
of the pieces, we will have to go in and start moving things 
around, which will have ripple effects that are negative.
    Mrs. Davis. Great. Thank you.
    My time is up.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here. We know that you 
are one of the principal authors of this QDR and we appreciate 
your insight.
    Help me understand what in the world this document is, 
because the Secretary of Defense, in his letter that he sends 
to us on this says it was to help the military to prepare for 
the strategic challenges and opportunities we face in the years 
ahead.
    My question, is that what it is? Or is it to prepare for 
the strategic challenges and opportunities we face in the years 
ahead the best we can, based on the BCA and sequestration, the 
current law?
    Or is it to prepare for the strategic challenges and 
opportunities we face in the years ahead the best we can, based 
on the President's proposed budget?
    Which of those three is it?
    Ms. Wormuth. Congressman, I would say we were trying to put 
forward in the QDR, first and foremost, a strategy-driven 
assessment of what we need. And that is----
    Mr. Forbes [continuing]. Then you were not in the QDR 
limiting it based on either the BCA and sequestration or based 
on the President's budget?
    Ms. Wormuth. I would say it was strategy driven, but 
resource informed.
    So what we tried to do was look out, completely--you know, 
just look at the security environment and what we saw there, 
and then look at our national interests and what objectives, 
what ends we are trying to achieve.
    Our assessment was that to meet the strategy that we think 
is appropriate for us as a global leader and a global power, we 
needed to have more resources than what we would have under the 
BCA. And that is why, at the President's budget level, which is 
$115 billion above the BCA, we think that at that level we 
could execute the strategy. We----
    Mr. Forbes. So you feel that the President's budget would 
help you implement the strategy you think would be best for 
this country to meet its challenges and the opportunities we 
face in the years ahead?
    Ms. Wormuth. Yes.
    Mr. Forbes. Okay.
    Now, Admiral, here is my question to you: You read a 
statement from Chairman Dempsey about the QDR, but I know you 
didn't have time to read the first paragraph. And this is what 
the Chairman of the Joint Chiefs says about this QDR.
    He says, it is gonna give us a smaller, less-capable 
military, which makes meeting these obligations more difficult. 
Most of our platforms and equipment will be older. Our 
advantages in some of the domains will have eroded. Our loss of 
depth across the force could reduce our ability to intimidate 
opponents from escalating conflicts.
    Nations and nonstate actors who have become accustomed to 
our presence could begin to act differently, often in harmful 
ways. Many of our most capable allies will lose key 
capabilities.
    The situation will be exasperated given our current 
readiness concerns, which will worsen over the next 3 to 4 
years.
    How in the world, given that assessment by the Chairman of 
the Joint Chiefs of Staff, can we say this QDR is the best we 
can have to meet the strategic challenges and opportunities we 
face as a nation?
    Admiral Winnefeld. For the--there is a difference between 
ends, ways, and means, as I mentioned earlier, and----
    Mr. Forbes. Yes, but that is not what the Secretary just 
said. She said that this is supposed to be the document that 
tells us our strategy.
    Admiral Winnefeld. Right.
    Mr. Forbes. If it is constrained simply by the BCA and 
sequestration, tell us that. If it is constrained by the 
President, tell us that.
    But that is not what she just said. She said this is the 
document that is primarily designed to address the strategic 
challenges and opportunities we face in the years ahead, how to 
meet it.
    So tell me how we can ever say that is the right QDR, given 
that conclusion by the chairman of our Joint Chiefs of Staff.
    Admiral Winnefeld. Right. So the QDR strategy, the ends, 
ways, and means,--the ends and ways we talked about--were 
carefully looked at. We looked at them during the Strategic 
Choices and Management Review last spring. And we came to the 
very clear conclusion that at the BCA level, it wasn't going to 
work.
    Mr. Forbes. I understand that. The President had an--he had 
a chalkboard he could write anything he wanted on.
    Admiral Winnefeld. Yes. And so, what happened was, that is 
what really drove that assessment. The QDR strategy is here. 
The ends and ways of the strategy are here----
    Mr. Forbes. So you are saying----
    Admiral Winnefeld. We don't have enough money to do it.
    Mr. Forbes. So you are saying the BCA and sequestration 
drove this strategy?
    Admiral Winnefeld. I am saying that the strategy actually 
drove the amount of money that we are submitting in this 
budget.
    Mr. Forbes. Well, if it did that, Admiral, why didn't the 
President include the 11th carrier in there? He had an 
opportunity to do that, because he wasn't restrained on his 
budget. That is the law. Every single contingency operation 
plan we have calls for that. Why didn't he put a carrier in 
there?
    Admiral Winnefeld. The carrier is intended to--we are gonna 
fix that, basically, on the next budget----
    Mr. Forbes [continuing]. Admiral, how do you fix that----
    Admiral Winnefeld. Sir, when we came to this conclusion, it 
was a fairly end-game thing when we said, you know, we are just 
not gonna be able to get this done at the BCA level and we 
decided----
    Mr. Forbes. Admiral, I am not talking about the BCA--I am 
talking about the President's budget. Why didn't he include it 
in his budget?
    He had no constraints. And he not only didn't include it, 
he took it out of the FYDP. He took it out of the money that 
had been allocated and appropriated. And he didn't even give 
the materials to do it this year.
    Why, when he was unrestrained?
    Admiral Winnefeld. Because it was an end-game problem, and 
moving all that money around in the end-game of all the line 
items it affected, and I would have to go to the Comptroller's 
to get you the best answer on that, but the bottom line, 
Congressman, is if we are funded to the President's budget 
level this year, that carrier will be back in in the 2016 
budget.
    Mr. Forbes. Admiral, that is not true, because he didn't 
include it in his budget.
    Admiral Winnefeld. It will be in the----
    Mr. Forbes. With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    Good morning, Admiral, Madam Secretary. Good to see you all 
this morning.
    You know, we have seen, over the last several decades, a 
drawdown in our forces in Europe of about 85 percent. I think 
that was a good thing. Saved us a lot of money. And it really 
reflected a reduction in tensions in Europe and, indeed, 
worldwide, with the collapse of the Warsaw Pact and the Soviet 
Union.
    We have seen a reduction and a drawdown of our forces in 
Korea of about 80 percent. And I think it is probably due to 
greater capability and that sort of thing.
    You know, it is--but what concerns me is that what we--with 
what we have seen in Crimea and the Ukraine over the last 
several months and when I was training the Polish military and 
worked with NATO folks, my mantra was that when there is peace 
in Central Europe, there is peace in the world.
    So with the drawdown that we have seen, do we currently 
have the capacity, the ability, to rapidly move folks back in 
and equipment back into Europe if that need would arise?
    Admiral Winnefeld. We do have the capacity to move forces 
back into Europe. The challenge we are facing at the moment is 
a readiness challenge. And that is because of the sequester 
last year, a really precipitous drop in funding. The Army is 
certainly digging out from that right now. It is gonna be a 
multiyear challenge for them to recover that readiness as they 
also come down in size.
    But, you know, if we had to do it, and we have a pretty 
good understanding, particularly sharpened by the most recent 
crisis, of what it would take to move our forces, requisite 
forces, back to Europe if we needed to.
    Mr. Enyart. Well, I think this last crisis brings another 
maxim--I was glad to hear you cite the maxim that it is not the 
plan, it is the planning. And, again, when I was training young 
officers, when I was training foreign military personnel, they 
would get wrapped up in the plan. And it is really not about 
the plan, it is about the planning.
    And so, I think that is what we in Congress need to 
remember is that it is really the process of planning, so that 
we understand that process. But I think particularly what this 
last crisis has shown us is that our opponent gets a vote. And 
sometimes we have to respond very rapidly to contingencies that 
certainly weren't in the plan.
    Can you tell me, Admiral, or Madam Secretary, to what 
extent and in what ways have our interests or the global 
strategic environment changed in the last 2 years and to have 
modified the plan or that we need to be looking at?
    Admiral Winnefeld. I will give you a little bit of an 
opening structure, then I am going to turn it over to Under 
Secretary. We think that a lot of the glue has come undone in 
the last few years. You know, this is a transition QDR. The 
last QDR was our war fight. And you know, were in the middle of 
two tough war fights in Iraq and Afghanistan. This is a 
transition QDR. The geopolitical environment has changed 
significantly. The ways wars are fought is changing every day, 
and it is accelerating and the fiscal environment is changing. 
So everything is different in the ends, ways, and means 
equation for us. But I would turn it over to Christine for some 
more specifics.
    Ms. Wormuth. Thank you. And I would just say I am not yet 
under secretary--still deputy under secretary. A couple of 
things I would highlight, I think, in terms of changes in the 
strategic environment. I think, one, obviously, the Arab 
awakening and the ongoing political transitions in the Middle 
East are developments that are fairly significant in the last 
couple of years. The fact that we are working and getting close 
to the transition of security responsibility in Afghanistan.
    And then I think on the technology front, there have been 
some significant developments in terms of the growing 
investments in anti-access and area denial capabilities that we 
see both in the Asia-Pacific, but also in the Middle East, and 
just the sort of continuing implements of the proliferation of 
advanced technologies and the spread of information 
technologies are some of the things that I would highlight that 
we saw as changing. We also obviously were seeing changes in 
terms of the fiscal environment that were significant that the 
Department had to take a look at.
    Mr. Enyart. I see that my time has expired, and I will 
yield back.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And Admiral, 
Secretary, thank you very much for being here today and on 
these very important issues. Given the changes in the global 
security landscape and fiscal realities, how would the 
integration of Active and Reserve Components and the balance of 
roles and responsibilities further evolve? For example, the 
planned changes in aircraft between Active and Guard and 
Reserve. What are the most important criteria in considering 
the refining of the total force mix, in order to ensure that 
the Active and Reserve Components best complement each other in 
support of the defense strategy? And I, as a former Guard 
member myself, I am really so pleased. And I have seen 
extraordinary success of where the Guard and Reserve are 
virtually interchangeable with Active Duty. It has just been 
very positive. And for each of you, if you could respond.
    Ms. Wormuth. Sure. Congressman, I would say I am very aware 
and have worked for a while on National Guard and Reserve 
Component issues. And I think, you know, it has been remarkable 
the experience that we have had with the Reserve Component in 
the last decade. And we have just seen the Reserve Component, 
the National Guard and the Reserves, play a very important 
operational role. And we couldn't have done what we have done 
in both Iraq and Afghanistan without the contributions of our 
Reserve Component.
    And I think going forward, we continue to see the role of 
the Reserve Component [RC] as being very important, being a 
complement to the Active Component, being a source of trained 
personnel and units that we can draw on to augment the Active 
forces when we need them. There are also obviously very 
specialized skills that we see in both the Guard and Reserves 
that we can make use of.
    And I think particularly for more predictable deployments 
around the world, that is another place where, again, where we 
can predict out and be able to give our civilian soldiers some 
predictability for their employers and be able to sort of allow 
them to plan for deployments. That is, I think, one of the 
criteria that we think about in terms of how to use the RC. But 
we see them continuing to be an important part of what we are 
doing.
    And in terms of the--just going to the aviation 
restructure, you know, that has been an opportunity to both 
gain some efficiency in terms of going from five types of 
helicopters to three. But we see the restructure that the Army 
has proposed as being beneficial, because we will be able to 
allow more Black Hawks to go into the Guard. And those 
helicopters, in particular, have a very important role to play 
for Governors in terms of supporting civil authorities in the 
event of natural disasters and things like that. We think the 
plan makes sense.
    Mr. Wilson. Admiral.
    Admiral Winnefeld. Sir, I think that when you consider the 
three pillars of the strategy, the Guard and Reserve play an 
essential--absolutely essential role in each one of them. And I 
don't even need to talk about homeland defense or homeland 
security. That is obvious. When you look at building security 
across the globe, I can point to the State Partnership Program, 
for example, as being one of the most effective and high-
leverage programs that we have in the entire government for 
building those kinds of partnerships. And it goes without 
saying that when we get into winning decisively in combat, that 
the Reserves play an absolutely essential role.
    So that is why, if you go all the way back to pre-9/11 
days, the amount of decrease that we are going to see across 
the Active and Reserve is about--proportionally about the same. 
If you go from the wartime high of particularly the Army, it is 
very disproportionate in how much the Active is coming down, 
compared to the Guard, and understandably so.
    But I think what is lost in all those numbers is the 
tremendous help we got from the Congress in bringing the Guard 
up in its capability and readiness across this last decade, and 
we want it to stay that way. And I think General Odierno and 
General Welsh, in particular, are committed to doing that and 
that is involved in some of this calculus. And I will give you 
some time back for another question, if that works.
    Mr. Wilson. Well, this is really important. And as a 
military family, I am very grateful. And all the credit to my 
wife, we have had four sons serve, two in Iraq, another in 
Egypt with Bright Star, and then our youngest son just returned 
from serving in Afghanistan. And so I know the Guard and 
Reserve members themselves and their families are just so 
grateful for the privilege and opportunity of serving.
    And Admiral, you touched on the problem that we have. The 
QDR states--experience gaps in training and maintenance are a 
problem, in terms of readiness challenge. How is that going to 
be addressed?
    Admiral Winnefeld. The gaps in training and maintenance?
    Mr. Wilson. Yes.
    Admiral Winnefeld. We are going to recover our readiness 
gradually. And that is as good as it gets right now, with the 
funding levels that we are seeing. The Army and Marine Corps, 
in particular, have tremendous work to just absorb the 
equipment management that they are going to have to do with the 
end of the war in Afghanistan. That is going to take tremendous 
amount of resources and it is going to take time to resolve.
    We are going to have to continue to recruit, train, and 
retain the best possible people we can from this country, in 
order to do the wrench-turning and the maintenance and getting 
these forces ready for combat. So it is a multi-dimensional, 
multi-disciplinary problem, that I have a lot of faith in the 
leadership in the Army and the Marine Corps, in particular, 
that are mostly affected by this, in getting it right. But it 
is a real challenge for them, under the readiness funding that 
we have got right now.
    Mr. Wilson. Thank you very much.
    The Chairman. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman. My first question is 
for Ms. Wormuth. A respected military strategist once wrote, 
``no major proposal required for war can be worked out of 
ignorance of political factors.'' I think the QDR briefing that 
is provided to the committee, included a statement that said 
sequestration-level cuts in fiscal year 2016 or beyond would 
leave us unable to adjust the force in the balanced way 
envisioned in the strategy. I wasn't here for the passage of 
the Budget Control Act. I think sequestration is a Latin word 
for stupid. But it is the law we have now and it is what we 
have to work with.
    And on top of that, the fiscal year 2015 authorization and 
appropriations cycle is going to be the last time in the 
foreseeable future that we have money to make strategic 
investments. So given that, given this burden and the fact the 
Department is already gearing up for the fiscal year 2016 POM 
[program objective memorandum] cycle, how are we going to meet 
that challenge? How is this QDR putting us on a glide path that 
we need to maximize our investments in a realistic way, given 
our budget situation?
    Ms. Wormuth. Thank you, Congressman. I think what we are 
trying to do in this QDR is do the best job we can to try to 
make clear why we need those additional resources that we have 
asked for in the President's budget. I think what we are 
essentially trying to say is if we want to remain a global 
leader, if we want to do what we think we need to do around the 
world, through our defense strategy and its three pillars, we 
need to have additional resources. And a lot of what we tried 
to do in the QDR was to spell out in some detail that if we 
aren't able to gain those additional resources, we are trying 
to make clear the real effects that would have on our ability 
to execute our strategy and on our ability to do what we need 
to do. So I think we are trying to make our case as effectively 
as possible for what we need and to work with Congress to try 
to gain those resources.
    I think if we don't do that, we will be looking at a 
substantial amount of risk to our strategy.
    Mr. Kilmer. My second question, Admiral, the fiscal year 
2014 QDR highlights the need for innovation and reform and 
advocates for rebalancing the DOD enterprise in order to 
control internal cost growth. Could you help me understand how 
we simultaneously maintain the strength of our All-Volunteer 
Force, while reducing compensation costs? From a budgeting 
perspective, I understand the math. However, I am interested in 
knowing how the Department studied the potential impact of 
implementing personnel pay and benefit reductions, and what, if 
any, differences such a study demonstrated on both the officer 
and enlisted populations of both the Active and Reserve forces?
    Admiral Winnefeld. Thank you, because we spent a tremendous 
amount of time on this particular question. We really wanted to 
understand with our service leadership, our service and 
enlisted leadership. And some of the considerable expertise 
that the Department has grown over the years for modeling and 
understanding the challenge of both recruiting, training, and 
retaining the best possible young men and women this country 
has to offer. At the same time, we get the best value for the 
American taxpayer in terms of capability, capacity, and 
readiness of our force.
    And so there are a number of models we use. One of the ones 
that we pay attention to that don't rely exclusively on is the 
percentile of compensation, the equivalent of a similarly 
educated, experienced person in the military would receive out 
in the civilian workforce. Previous studies have said we ought 
to be at the about the 70 percentile which would mean every 
single person in that, you know, same ilk in the military would 
be paid at the 70 percentile of the rest of the workforce in 
the country. We are actually up around 90 right now, 90 percent 
for some of our--for most of our disciplines. That is probably 
a little too high, but I think 70 is a little too low. So, 
where--we pay attention to that as we design this, but it is 
really, what does it take to train and recruit and retain the 
best possible people we can?
    We believe that in the 1990s, our force was grossly 
underpaid, and we saw the effects of that in all manner of 
different metrics that you can use.
    Thanks to the Congress and help from this body, we 
dramatically increased the trajectory of that compensation 
glide slope upward in order to correct that redress. And we 
have done that. And, in fact, we probably overshot a little bit 
in the early years of this century, but we were in the middle 
of a war, so we didn't mess with that. It is probably the time 
now to lower that trajectory back down, to adjust it to what we 
think is the right sustainable level for the military, again, 
in the interest of getting the best value for the taxpayer.
    So, it is sensible, it is gradual, it is compassionate, and 
the impact is not that great. And I look forward to being able 
to discuss that with the committee at some point.
    Mr. Kilmer. Thank you, Admiral.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. And I will thank the 
witnesses for being here and their preparation.
    Admiral Winnefeld, in the fiscal year 2014 budget cycle, 
the Nuclear Weapons Council, including then-acting 
Administrator Neil Miller, agreed to a multi-year, multi-
billion-dollar set of efficiencies at the NNSA [National 
Nuclear Security Agency], in order to make these savings 
available for modernization efforts.
    As a member of that council, did you review those proposed 
efficiencies, and did you support them in the fiscal year 2014 
budget request and in the out-year plan?
    Admiral Winnefeld. We did review those in close 
coordination on the Nuclear Weapons Council with NNSA. We did 
support them. We did say, as the Nuclear Weapons Council, I 
think, in our certification letter that there was some risk 
associated with those efficiencies as to whether they were 
executable or not, but we were definitely hoping we would get 
them.
    Mr. Rogers. And why is that?
    Admiral Winnefeld. It was going to help NNSA manage its 
resources to help us both with the life extension programs 
[LEPs] for our nuclear weapons, and also for some vital work on 
their infrastructure.
    Mr. Rogers. What is the status of those efficiencies?
    Admiral Winnefeld. Most of those efficiencies were not 
realized. We are still working with NNSA to see if we can't 
gain some of those efficiencies back.
    Mr. Rogers. Why do you think they weren't realized?
    Admiral Winnefeld. Again, part of them were higher-risk 
efficiencies that the NNSA just did not feel comfortable 
implementing. So, I would have to defer to the actual Energy 
Department in terms of a precise answer of why they did not 
actually implement them. We were a little disappointed. And we 
will continue to work with the NNSA to try to get as much 
efficiency in there because we are a stakeholder here.
    As you know, DOD provides money each year on top of the 
NNSA program to take care of our LEPs and the like, so we do 
have an interest in this.
    Mr. Rogers. Well, my perspective is, they didn't try. I 
don't think they were really motivated. And they need some help 
in that department. But that is just my opinion.
    Ms. Wormuth, in the QDR, it states, quote--``We, the U.S., 
will pursue further negotiated reductions with Russia.'' Given 
Russia's illegal annexation of Crimea, and the massing forces 
on the Ukrainian borders, do you support today new negotiations 
with Russia to reduce nuclear forces?
    Ms. Wormuth. Oh, pardon me.
    Congressman, I would say Russia has not, frankly, indicated 
interest in pursuing further reductions in the last couple of 
years, so I think at this point, we are not actively in 
discussion with them, and don't see that happening in the 
foreseeable future.
    Mr. Rogers. So, this language was in there--just put in 
months ago, and nobody just bothered to take it out?
    Ms. Wormuth. Congressman, I don't have the language at my 
fingertips, but I think what we were saying was that we would 
like to, at some point, be able to pursue further reductions, 
and we would do that only in concert with Russia. However, they 
have not demonstrated interest in it, so----
    Mr. Rogers. In fact, to the contrary, they have said flatly 
they have no interest in doing anything beyond New START 
[Strategic Arms Reduction Treaty]. Vladimir Putin's words 
exactly. So, I don't think we ought to even be considering it.
    It is also in public knowledge that State Department has 
confronted Russia about likely violations of the INF 
[Intermediate Range Nuclear Forces] Treaty. This morning, the 
New York Times reports that General Breedlove described 
Russia's violation as, quote--``a military significant 
development,'' close quote. And the media reports indicate the 
U.S. has known about the likely violations for years, and 
didn't even tell our NATO allies. Did this factor into these 
statements in the QDR about negotiations with Russia's--for 
treaties with Russia?
    Ms. Wormuth. I think, Congressman, if the Russians were 
interested in pursuing further reductions, we would look at 
that because we think that it would be in, potentially, in our 
national interest to have lower levels of nuclear weapons in 
both parties. We are aware of the potential violation of the 
INF Treaty and are very concerned about it, and have made that 
concern very plain to the Russians, and continue to address 
that with them.
    Mr. Rogers. Okay. Do you believe that they should be in 
complete confirmable compliance with all existing treaties 
before we negotiate any further reductions?
    Ms. Wormuth. We would like to see them be in compliance----
    Mr. Rogers. That is a yes or no question----
    Ms. Wormuth [continuing]. With the INF Treaty.
    Mr. Rogers [continuing]. Whether they should be in 
compliance or not. I think anybody--a reasonable person would 
agree that before we agree to negotiate further reductions, the 
party should be in compliance with existing treaties.
    Ms. Wormuth. I think we would look very seriously at that, 
if we were actively considering further reductions.
    Mr. Rogers. That is a lawyerly response.
    With that, I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony today.
    And, Admiral Winnefeld, I will start with you. And first of 
all, I want to thank you for the attention that you paid to 
cyber. You and I have had the opportunity to talk about this 
issue in the past. And on that point, the QDR notes that 
deterrence in cyberspace requires a strong coalition across the 
whole-of-government and the private sector. But the very 
concept of deterrence in cyberspace is tenuous at best, even if 
you assume a nation-state aggressor, and even more so when 
defense is dependent on a network of actors who may or may not 
even have authorities to act.
    So, there are any number of variables at play, most of 
which I would say are outside of DOD's control. So, my question 
is, do we have a clear enough, articulable enough vision of 
what deterrence looks like in cyberspace? And does that even 
matter for the Department's purposes?
    Admiral Winnefeld. That is a very, very good lead-in. I 
think we do have a good sense for deterrence. If you look at 
deterrence in classical terms, one where you are trying to deny 
an adversary's objectives, another where you would impose costs 
on them for potential aggressive action, and the third where 
you make yourself as resilient as possible--it is almost a 
mirror image of nuclear deterrence in cyberspace.
    So, we are working very hard to be able to--for the 
latter--to be as resilient as we can possibly be in our 
networks if something untoward happens to them. To certainly 
deny an adversary's objectives is a principal function of what 
CYBERCOM [U.S. Cyber Command] is about, is to deny an 
adversary's ability to penetrate, exploit our own DOD networks, 
and to assist civil authorities in the same for civil networks.
    And then, of course, we retain the ability to impose costs 
on an adversary, whether it be in cyberspace, or some other 
method, for something that they might--that adversary might do 
to us.
    Mr. Langevin. Do you feel our adversaries, at this point, 
understand what those red lines are? Have we, as a country yet, 
done a sufficient job of conveying to potential adversaries 
what those red lines would be, and what our response would look 
like?
    Admiral Winnefeld. I think they have a general 
understanding, if not a fear, of what they feel we can do to 
both prevent and potentially impose costs for an untoward 
action in cyberspace. Is it clear? Is it very, very clear to 
them what would happen? I would say probably not. And I think 
there may be some benefit in ambiguity in terms--in an 
adversary's mind as to exactly what you would do to retaliate. 
But as long as they know we have the capability to do some 
major work either in cyberspace or outside cyberspace, I think 
that would serve as a deterrent.
    Mr. Langevin. Thank you. Thank you.
    On another subject, Admiral, the QDR highlights the 
importance of a safe and secure deterrent. And I have been 
disturbed to read press reports that the Department may not 
comply with provisions in the omnibus spending bill and the 
fiscal year 2014 NDAA that allow the Department to use funds 
and the bill to--and I quote--``prepare for such reductions 
needed to implement the New START Arms Reduction Treaty.'' In 
this case, the environmental assessment to assess the cost and 
feasibility of reducing the number of ICBM [intercontinental 
ballistic missile] silos.
    I, for one, would feel much better knowing that decisions 
made regarding what constitutes a safe, secure, and effective 
deterrent triad is informed by the best judgment of our 
uniformed leaders about how to balance a deterrent, rather than 
shaping the Nation's nuclear force based on parochial 
interests.
    So, my question is, what would your recommendation be on 
what reductions should be made to comply with the New START 
Treaty and maintain an optimal nuclear deterrent, including 
maintaining the survivability and flexibility you need? And can 
you describe for us the follow-on effects of any restrictions 
on your ability to assess options for reductions to one leg of 
the triad versus another?
    Admiral Winnefeld. We have looked at this problem very, 
very hard over the last year, Congressman. It is a vexing 
challenge to look at all of the factors involved and the 
relative advantages and disadvantages of decreasing ICBM silos 
and decreasing SLBM [submarine-launched ballistic missile] 
tubes on submarines.
    We are close, as a Department, to providing our 
recommendation on the new START force structure. I am not able 
to reveal that in this hearing, unfortunately, today. It has 
been a spirited discussion. We would like to have been able to 
conduct environmental assessments on the ICBM silos, if not for 
this decision, for future decisions, just so that we have the 
information in hand. But we may not be able to do that because 
of the law.
    But in any case, I believe the Secretary will very soon be 
making a recommendation to the President on what the New START 
force structure would look like. And I would look forward to 
that becoming available to the committee as soon as possible 
thereafter.
    The Chairman. Thank you very much.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Admiral Winnefeld, 
Ms. Wormuth, thank you so much for joining us today. Thank you 
for your service to our Nation.
    Admiral Winnefeld, in looking at the QDR, it identifies, as 
you pointed out, a near-term budget constraint force structure. 
And the QDR defines the planned end strength in force structure 
through 2019. The law, though, says that QDR should define 
force structure and end strength for a 20-year period of time.
    Can you tell us what the projection is past 2019, and maybe 
why it was left out of the QDR?
    Admiral Winnefeld. I don't--in terms of why it was left out 
of the QDR, it may be a matter of language in there. Most of--
as we said, you are looking through a glass darkly 20 years 
out. We have no idea what the budget environment is going to be 
like or the geopolitical environment.
    But my sense is that in the force structure that we would 
have at the end of a 10-year period is essentially--would 
essentially remain constant across the following 10-year 
period.
    Now, we know that is not going to be completely true. There 
are going to be changes in technologies and threats, and even 
our operational plans, that would--you know, new ideas come up, 
that sort of thing, where we would change that force structure.
    But, knowing what we know right now, this year, the 
following 10 years would look a lot like what we see out at the 
end of that first 10-year period.
    Mr. Wittman. Very good.
    Secretary Wormuth.
    Ms. Wormuth. I would just add and say I think the QDR 
process allows us to be more precise in the near- to mid-term. 
And certainly, as you know, the Department programs--plans and 
programs for a 5-year period to have the most precision in 
terms of how we are able to see our force structure at the end 
of the FYDP.
    We do in the QDR, however, look out 20 years, both in terms 
of the security environment, but also in terms of trying to 
think about what kinds of capabilities, what kinds of 
investments we need for that 20-year period.
    And I think in terms of those broad capabilities and the 
broad directions, we try to look out 20 years. And I think it 
acknowledged that some of the capabilities that may go onto--
the platforms may still be in place, but some of the 
capabilities may be new.
    And we talk about certainly in terms of things like 
unmanned undersea vehicles, for example, or other technologies 
of that sort.
    I think we try to point to those, but the far term is more 
aspirational, and, hence doesn't have the same level----
    Mr. Wittman. No, remember my comment was specifically about 
end-strength and force structures. So that is where I was 
really focusing.
    Admiral Winnefeld, let me go back to you.
    And in the QDR risk assessment, Chairman Dempsey stated 
that ``the chiefs and I are working with the Secretary of 
Defense to refine and prioritize U.S. military objectives to 
align with the size and capabilities of our programmed force.''
    Can you tell me, how are U.S. military objectives currently 
misaligned and as it relates to our current size and 
capabilities of the programmed force in the QDR?
    So that alludes to there being a misalignment. Can you 
define what that is?
    Admiral Winnefeld. I can give you an example, because it is 
a really good question.
    The current force as we have it is sized and shaped to 
fight a counterinsurgency operation in Afghanistan and, you 
know, not too long ago, it was Iraq and Afghanistan.
    That causes the Army to grow considerably in size. And, in 
fact, a lot of that force structure growth was in OCO, in 
overseas contingency operations funding, because we knew it was 
going to be temporary.
    And so, realigning that force back into a shape that is in 
adherence with the strategic precepts of the QDR is, I think, 
what they are really talking about in that statement.
    So what is the kind of force that we need to have 
configured to fight all fights that we can't see yet, but that 
we can anticipate, as opposed to the one that we have been in 
for the last 10 years.
    Mr. Wittman. One of my concerns is that if we are talking 
about a misalignment and trying to bring it back to what we 
project as the threats may be, just as you pointed out, that is 
a very dynamic environment.
    The concern is, if you are doing a realignment, is you 
realign too conservatively and then cut our force structure 
back to where you don't have the ability to respond to a major 
contingency operation, if one were to break out.
    So I have a deep concern about that.
    Let me ask a question about readiness. It is point out in 
the QDR, too, it says we will continue to experience gaps in 
training and maintenance over the near term. Very significantly 
concerning to me.
    What is the Department's assessment, then, on the longer 
term? If the projection is that we are gonna try to close those 
readiness gaps in the short term, what is the projection in the 
longer term as far as meeting these readiness needs, as far as 
training and maintenance?
    And, as you know, today, there is significant gaps in the 
short term, and we can't just press the button and get 
readiness back a year from now or 2 years from now.
    Admiral Winnefeld. And you are exactly correct.
    When you have a very precipitous drop, such as we had in 
the last year or two, you have to grab cash wherever you can. 
That is what Ash Carter said.
    And it is hard to get that cash out of force structure, 
because we just can't get people out fast enough. There are 
things we have to do in order to shape and to be fair to our 
young men and women and that sort of thing.
    So the place you grab cash quickest is readiness. The 
second place you can grab it quickest is in modernization. Just 
cancel programs or cut back on the size of programs.
    And readiness is obviously a ripe target there. I have a 
saying that readiness has no constituency. If you have an F-15 
squadron in your district, you know, it is I want that F-15 
squadron, and I don't care if it is flying or not.
    And so, what time allows us to do is to gradually bring the 
force back down to where it needs to be and to gradually 
recover its readiness so that you are taking less of the hit 
out of the readiness money and you are able to more 
thoughtfully shape the profile of capability, capacity, and 
readiness.
    So that is why we think we will recover readiness over the 
long term, once we get the force size under control. But it is 
gonna take some time. You are exactly correct.
    The Chairman. Thank you very much.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to thank Madam Secretary and the Admiral for 
being here today.
    You heard Congressman Wilson talk about his family. 
Obviously, we are kind of vested in the same way. I have three 
sons that currently serve this Nation and are proud to do that.
    But when we talk about the Army, and there has obviously 
been a lot of discussion about the right way to rightsize the 
Army. And, you know, there is one idea floating around, and I 
would like to get your input on it, but it is really about to 
establish an independent commission, similar to what the Air 
Force recently did, to evaluate the needs and mission of the 
Army and to make recommendations on appropriate force structure 
for all three components.
    Over the span of the QDR, why shouldn't we take the 9 to 12 
months to conduct a comprehensive study of the proper AC/RC 
[Active Component/Reserve Component] force mix and how the 
structure would be best tailored to fulfill the mission 
requirements that are consistent with the available resources 
that we have?
    I would like to hear from both of you on that.
    Admiral Winnefeld. I don't necessarily personally believe 
we should do a new commission. I think we have the analytical 
power and wherewithal inside the Department, and then certainly 
in working with the committee, to come up with reasonable 
answers to the problems that we face, in terms of sizing and 
shaping all of the services, including the Army.
    I worry that a commission can be a way of kicking the 
problem down the road a little bit, when we actually have the 
information we need in order to make these decisions.
    So we are not overly supportive, frankly, of a new 
commission.
    If the legislation is, then we will obey the law, and we 
will support the commission. But we don't think we need one 
right now, sir.
    Mr. Nugent. Okay.
    Madam Secretary.
    Ms. Wormuth. The only thing I would add is that I think 
both during the Strategic Choices and Management Review and 
also during the QDR process, I was impressed, frankly, with the 
quality and intensity of the dialogue, particularly inside of 
the Army.
    You know, General Odierno, General Grass, the head of the 
Army Reserve, had very extensive, I think direct and honest 
discussions.
    And, in addition I think to having a lot of internal 
analytic capability, I think the professionalism and level of 
the dialogue has been very, very good. And the Army has 
struggled with some difficult issues and some difficult trade-
offs, but I think has done that with a lot of integrity.
    Mr. Nugent. Well, I know that some of the--there were some 
other recommendations made, particularly by the National Guard 
Bureau in regards to how to restructure, as it relates to the 
National Guard. And I was--it just seems like their 
recommendations were kind of overlooked, I think, as a way to 
continue to do what they need to do and also work within the 
budgetary considerations that are forced on them.
    I worry about, obviously, from the National Guard 
perspective from the State of Florida, you know, we are looking 
at restructuring the National Guard with the loss of lift 
capabilities by--we don't have Apaches, but we have--we do have 
Black Hawks, and that we are being told that we are gonna lose 
some of those Black Hawks to--I guess to backfill other areas 
within this force restructuring.
    That is going to put, you know, Floridians at risk, 
particularly during, you know, a time of emergency, and we do 
tend to live on a peninsula which is exposed to those types of 
things with hurricanes.
    So I guess, so, you know, from my perspective, I don't have 
any military bases in my district. I do have some National 
Guard assets. But end of the day, I worry about the State of 
Florida and having the availability of those lift capabilities 
that are going to be reduced, at least what we are being told 
in the State of Florida.
    How do we reconcile that? How do we--we are taking 
resources away from a State that is dependent upon that for a 
recovery.
    Ms. Wormuth. Congressman, I am not aware of the specific 
decisions or conversations about which States may be losing or 
gaining helicopters, for example, so I just want to be clear 
that while I am not aware of the specifics, I do know that the 
Department has been working closely with States and the Guard 
Bureau to try to look at force structure on a State-by-State 
basis in terms of how it relates to the ability of States to 
meet their civil support needs.
    So I know we have been trying to look at that. We have done 
some studies that have been looking at sort of historical 
disaster patterns and how that relates to the type of 
structure.
    So I think, as we go forward, to try to evaluate where we 
may be making some adjustments, we will certainly try to inform 
those decisions with that analysis that looks at specifically 
the kinds of natural disaster needs that coastal States, like 
Florida, have.
    Mr. Nugent. You know, I am just hearing from our National 
Guard----
    The Chairman. The gentleman's time expired.
    Mr. Nugent. I am sorry. I yield back.
    Thank you very much.
    The Chairman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you for being here.
    Admiral, I always want to make a special statement of 
gratitude to people like you who have worn the uniform for so 
long and have made it more possible to walk in the light of 
freedom some day. And I really am grateful to you.
    And I was especially impressed by the tone and tenor and 
the substance of your opening statement. I think it certainly 
points out the failure on our part related to this sequester.
    And, if it means anything to you, I apologize. I mean, some 
of us didn't support it, as you know, but it was something that 
I think we have really put the military and those who give 
everything for us in a very bad situation.
    And I know you are doing the best you can. But it is a 
difficult situation.
    So, with that, Ms. Wormuth, thank you for being here as 
well.
    And, I guess, let me begin by suggesting to you that events 
in the world began to overtake some of our thoughts. And more 
and more we see what looks to be like increasing danger in the 
world.
    North Korea is not only now able to have a nuclear weapons 
capability, but their missile technology is advancing in a very 
ominous way. And with Iran on the potential phase of a 
breakout, if they wanted to be, over time, I think it is a very 
sobering time.
    With that in mind, the only thing that this administration 
had to really dissuade the Iranians early on was this third 
site in Poland, as far as devaluing any nuclear weapons program 
or missile program they might have. And they canceled that.
    And, if the QDR recognizes that the top of our three 
pillars is to protect the homeland, and that is certainly 
fundamental, then how did that strategy bring this 
administration to a budget that has the smallest level of 
missile defense funding since we have had--since the Clinton 
administration?
    How did that happen?
    And I direct the question to you, Ms. Wormuth.
    Ms. Wormuth. Thank you, Congressman.
    I think we share the concerns that you have about North 
Korea and about Iran, that is part of the reason why we put 
such an emphasis on protecting the homeland in the strategy, 
and it is part of the reason why we put such an emphasis on 
making sure that we are keeping pace with the missile threats 
posed by those countries.
    Mr. Franks. Forgive me, Ms. Wormuth, I have got to start 
here again. I mean, then how does that translate to the lowest 
missile defense budget since the Clinton administration?
    Ms. Wormuth. What we have tried to do, Congressman, is to 
make sure that we are applying money to the parts--to our 
missile defense program where it makes sense and where it 
works.
    So that is why we added the 14 additional GBIs [ground-
based interceptors], for example. It is why we----
    Mr. Franks. Forgive me--forgive me. You didn't add them. 
They were taken out, and you put them back at a much higher 
cost. And I mean, I am just trying to--you are in a bad 
situation, because you have to defend, in my judgment, what is 
an indefensible position.
    Unfortunately, you are the only one in front of me. So 
there is nothing personal here, but the fundamental proof of 
the administration's commitment to homeland protection has to 
be at least a strong emphasis on missile defense.
    And the lowest missile defense budget since the Clinton 
administration? That doesn't translate. And it really concerns 
me. It is not--I realize it is a partisan election year, but 
this is something that some of us have been raving about since 
we have been in diapers, and it gets more and more concerning.
    So I am hoping--I know your guy is gonna give you a note 
here. So I will let him give you a chance to--let you, give you 
a chance to reflect what he might say.
    Go ahead.
    Ms. Wormuth. I would just say, Congressman, we are 
obviously having to make difficult choices inside of the 
Defense Department between capacity, capability, and readiness.
    That said, we are funding the missile defense system in a 
way that we think gives us the protection we need. In addition 
to, again, putting more towards the GBIs, we are also putting 
money and looking at a redesign of the kill vehicle. We are 
putting more money into the sensor system, into the 
discrimination for the radar system.
    So we are making investments to make sure that we have a 
system that can give us the protection we need.
    Mr. Franks. Well, fundamentally I have to respectfully 
disagree that the emphasis is as it should be. And Admiral, I 
will give you a chance if you want to try to clean this up for 
me a little bit.
    Admiral Winnefeld. One of the things I would like to do is 
sit down and talk, if we can, about the European Phased 
Adaptive Approach, because my predecessor----
    Mr. Franks. I am very familiar with it. So I know what you 
are saying. And I understand.
    Admiral Winnefeld [continuing]. He did some good work on 
that. And the other thing I would say is, a good chunk of the 
money that has come out of the budget is in regional missile 
defense, where we are gonna expect our partners to do more. We 
are gonna expect them to buy systems from us to help themselves 
while we maintain our focus on the homeland with the potential 
East Coast site, sensor improvements, and the like----
    Mr. Franks. Well, we all know that a nuclear missile can 
ruin our whole day, so I hope we keep that in mind. Thank you.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman.
    I thank the panelists for being here as well.
    I apologize for being late, coming from the Ag 
[Agriculture] Committee, but the first question is really just 
a point of clarification. And that is, at one point there was 
discussion of establishing a base in Australia.
    I guess, ostensibly, it was part of the pivot to the 
Pacific, and some kind of counter to China. And I am just 
looking for clarification, consequent to the QDR, is that still 
the plan?
    Ms. Wormuth. Yes, Congressman, we are continuing our plan 
to put Marines at Darwin, eventually building up to 2,500. So 
we are on track to do that and are in discussions right now 
with Australia about some adjustments we would like to make to 
our access agreement to support that.
    Admiral Winnefeld. And I would just add, if I could, that 
we aren't technically calling that a base. We are calling them 
rotational deployments out of respect for the Australians and 
their sovereignty concerns. And we have an extremely good 
relationship, obviously, on the defense side with Australia, 
but it is a rotational presence.
    Mr. Gibson. In the QDR discussions, did it ever surface or 
become a point of analysis and discussion that, you know, at 
the same time that we are establishing a new base, that we are 
gonna request authority to reduce the number of bases here in 
the United States and, you know, how from a rationale 
perspective that could be defended. Did that point ever come 
up?
    Admiral Winnefeld. I don't know that we are expending a 
great deal of military construction funding to support a 
rotational presence. We would probably help the Australians a 
little bit, and we can take that for the record to give you the 
exact numbers.
    [The information referred to can be found in the Appendix 
on page 57.]
    Admiral Winnefeld. But, this was a very high leverage thing 
for us to be able to cooperate with our Australian partners, to 
have Marines further out, away from the United States, closer 
to potential problems, and the opportunity to train in 
wonderful training space with a tremendous partner.
    So I think it really wasn't a great consideration that we 
would be--because we are not building a base there. I think 
there are other places in the world where that is more a 
factor.
    Mr. Gibson. So the second question has to do with your 
deliberations and conclusions as relates to anti-access, 
strategic maneuver, and ultimately where we are now in terms of 
the Global Response Force.
    Admiral Winnefeld. In terms of the status of the Global 
Response Force?
    Mr. Gibson. Yes, how it now fits in to how we are gonna 
proceed over the next 10, 20 years. Talk to me in terms of what 
the analysis was, and where we are now in terms of commitment 
to the Global Response Force, in relation to the challenges.
    Admiral Winnefeld. Sure. We are gonna maintain the Global 
Response Force. It is a very robust force. Currently the 82nd 
Airborne is the Army element attached to that, but it is a 
very--you know, a lot of different forces that are part of 
that. And we have used it in the past. We used it in Haiti, for 
example, when we needed to deploy a headquarters and some folks 
on the ground there very quickly and they were very responsive 
and did a great job.
    So we have to be agile as a force. So I would argue not 
only should we maintain a Global Response Force, but we need to 
look across our force at ways that we can move more quickly, 
because events unfold more quickly in this world than they ever 
have before and we have gotta be able to get there fast.
    Mr. Gibson. Appreciate the comments, Admiral, and agree 
with you on that. I was actually the 82nd Commander for that 
operation. That was my last deployment before I retired. And I 
agree, I think our service men and women really did a fabulous 
job.
    I did come away from it and certainly am understanding of 
the larger picture in terms of our commitments to Afghanistan 
and other places, but it was my perception that, you know, the 
Global Response Force in early 2010 was at very high risk in 
terms of the way that we had capabilities that we could--and 
resources that we could bring to bear.
    I am still realistic, to this day, obviously, about what we 
can do at the moment, but one of the suggestions I have is that 
when it--as it relates to the war plans, and as it relates to 
resourcing and the QDR being a piece of this, that my sense is 
we need to do more modeling and simulation to understand not 
only the vertical task list, but then when you turn it 
horizontal, what that means in terms of sequencing forces, 
where the gaps are in terms of resources are, and that, you 
know, that is one way of measuring risk.
    And I suspect that we do have pretty high risk, which I am 
not sure that my colleagues fully understand. And I think that 
we could do more on that score because it is a joint 
requirement and everything in terms of jamming, fighter bomber 
escort, C-17 accompaniment, and the concept of how you do 
vertical or amphibious envelopment that brings on early 
arriving forces, campaign forces, and behind it, command and 
control, sustainment, all of this and then post-hostilities.
    I don't sense that we have a full understanding of where we 
are. We don't see ourselves very well in terms of where we are 
in terms of that CONOP [concept of operations] if you will, and 
then for my colleagues to understand the risk associated with 
that.
    Ms. Wormuth. Congressman, I would just add that I think 
during the QDR process and frankly, sort of just on a regular 
basis, we do try to look at all of those types of issues, we 
use scenarios, we use modeling, to try to get at all of those 
different types of things. We look at a real breadth of 
scenarios to try to understand where we have risks, where we 
may have gaps, to try to help guide our force development 
efforts in the future.
    So, that is certainly not a perfect process, but we do have 
a fairly robust set of analysis that we conduct in support of 
reviews like the QDR to try to get at that.
    Mr. Gibson. Well, and my time is up. I am going to have to 
yield back in a second. I certainly look forward to, and I will 
have my staff reach out to you. I would like to learn more 
about all that process. And, you know, we certainly did a lot 
of on the ground--we did actual training, but we would have to 
complement that with modeling and simulation.
    And I yield back. Thank you for your patience, Mr. 
Chairman.
    The Chairman. Thank you very much. There are just a couple 
more things that the force planning construct is used to size 
the force. And the QDR still talks about being able to fight a 
major contingency and then--and hold on another one. I thought 
we had backed off from that, is that where we are right now?
    Admiral Winnefeld. We are not using the term ``hold'' as a 
term of art anymore. It is a different----
    The Chairman. We used to say----
    Admiral Winnefeld. ``Win, hold, win,'' or whatever it was?
    The Chairman. First two were, fight, then fight. We can do 
two majors. We pulled back from that to where we would fight 
and hold. Now, I think the wording in the QDR is defeat and 
deny, which I guess would be the same as fight and hold.
    Admiral Winnefeld. We had--there was a seminal meeting we 
had where we were talking about this a couple years ago. And 
Ash Carter and I were sitting at the end of the table, and the 
discussion was about how far apart do you have to pry two big 
contingencies in order to be able to do them?
    And we sort of turned and looked at each other and said, 
you know this is, you know, this is not the right way to look 
at this because the adversary has a vote.
    And you might find yourself doing something simultaneously. 
And so we really need to ask ourselves, What can we do 
simultaneously? What should we be able to do simultaneously? 
With the understanding that you might be fortunate and that 
they would be spread apart by some amount of time that we don't 
control. So we decided that----
    The Chairman. Without getting too down into the two, 
because there is still two in the QDR, but we have testimony 
from General Odierno, from General Amos, as we finish these 
posture hearings, that they were going to be very hard-pressed 
to fight one, and that is why I wonder why we still have two in 
the QDR.
    Let me just--you know, in listening to all of the questions 
and all of the testimony, and all of the work that has gone 
into this, all of these models, and all of these people putting 
in all of this time, do you have any idea what--how long it 
took to put the QDR together?
    Ms. Wormuth. Congressman, this time, this was a shorter QDR 
than past QDRs. We had about 6 months. We really kicked it off 
in September.
    The Chairman. So, 6 months to do this.
    Ms. Wormuth. But I would add we build--we had a good, 
strong basis in the work that was done.
    The Chairman. Any idea of--as to cost?
    Ms. Wormuth. I don't have a precise cost figure for you, 
sir. I think we can take that for the record and work on it.
    [The information referred to can be found in the Appendix 
on page 57.]
    The Chairman. Within hundreds of thousands or million?
    Ms. Wormuth. Well, it is primarily--it is really man-hours 
that is the largest cost.
    The Chairman. But that is cost, right?
    I mean, if they are working on this, they are not working 
on something else.
    Ms. Wormuth. That is correct. And there are a large number 
of folks in the Pentagon, in OSD, in the----
    The Chairman. As I have been listening here, I go back to 
Mr. Thornberry's question and I am--I know that there is nobody 
that does more planning than the military.
    I know you have plans for every contingency on contingency, 
and this is just to my way of thinking after going through this 
process and seeing it now for a number of years, we have had 
more discussion about the process or about why you didn't do 
this or didn't do this in the planning than what we have 
actually talked about as to what your recommendations or things 
were, and how it differed from what the budget was.
    So, I think this is something we are going to have to look 
at going forward if this is one of the things that we do in 
setting up bureaucracy is put more and more effort on the 
bureaucracy and build up bureaucracy instead of putting that 
time then, to actually getting something done that we probably 
would get more benefit out of.
    Anyway, a lot of work. I appreciate your efforts, 
appreciate the things that you have done. Appreciate you being 
here today and your patience as we have gone through this.
    Thank you very much.
    This committee stands adjourned.
    [Whereupon, at 11:51 a.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 3, 2014

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 3, 2014

=======================================================================

      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
     
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 3, 2014

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. MCKEON

    Ms. Wormuth. Estimating precise costs to complete the 2014 QDR is 
difficult. The Department conducted the 2014 QDR over a shorter time 
period than prior QDRs, roughly from late August 2013 to early March 
2014. During this intensive Review, OSD, the Joint Staff, Services, and 
Combatant Commands incurred staffing costs and commissioned studies to 
provide analytical support. In all, our best estimate is that the QDR 
cost almost $16 million. Approximately 80 percent of this was 
manpower--over 140,000 hours--which is also largely an opportunity cost 
for the Department. Analytic studies comprised less than 20% of the 
total cost of the 2014 QDR. The Department also obligated $1.5 million 
in support of the National Defense Panel.   [See page 35.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. GIBSON
    Admiral Winnefeld. The United States is not building bases in 
Australia. The goal remains to establish a USMC and USAF rotational 
presence in Australia as jointly announced by the President of the 
United States and the Prime Minister of Australia on November 16, 2011. 
We are currently involved in negotiations with the Government of 
Australia on a legally binding government-to-government agreement that 
will form the foundation necessary to fully mature these force posture 
initiatives. The agreement is intended to establish access and use of 
mutually determined facilities, as well as equitable cost-sharing 
principles. Detailed cost estimates will not be made until after 
negotiations are completed and specific facilities have been 
identified. The Department of State is the lead for negotiations, with 
support from the Department of Defense.   [See page 33.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 3, 2014

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. General Dempsey states that his ``greatest concern is 
that we will not innovate quickly enough or deeply enough to be 
prepared for the future, for the world we will face two decades from 
now.'' I could not agree more. The question for you, then, is what more 
can DOD do to ensure innovation and the acquisition of technologies 
that will provide a decisive advantage in warfare in the 2020s and 
2030s? Do we have enough investment in R&D and are we applying that 
investment properly?
    Admiral Winnefeld. Given the pace of advances in technology, and in 
a fiscally constrained environment, we have to ensure we focus our 
investments to maintain our battlefield edge. We must seek technologies 
that enable our forces to be more agile and embrace new ways of 
operating, even if they depart from the familiar.
    The FY 2015 President's Budget puts us on this path. It provides 
stability for research and development, maintaining a healthy Science 
and Technology (S&T) program of $11.5 billion to invest in future 
technologies, and an overall Research, Development, Test and Evaluation 
(RDT&E) Portfolio of $63.5 billion, an increase of $0.7 billion over 
the FY 2014 enacted levels. The procurement portfolio of $90.4 billion, 
a decrease of $2.0 billion from FY 2014 enacted levels, reflects the 
hard choices that were necessary in the current fiscal climate but 
continues to fund the critical weapons systems needed to enhance our 
highest priority warfighting capabilities.
    I am confident that the investment levels and the placement of 
those investments in the FY 2015 President's Budget are sufficient to 
meet the needs of our forces. However, if sequestration-level funding 
returns in FY 2016, the risks inherent within the Department's approach 
to satisfy our strategy will grow significantly. The reductions would 
affect all appropriations, including RDT&E, severely curtailing the 
Department's ability to develop new technologies. Compared to the FY 
2015 President's Budget, investment (Procurement and RDT&E) would grow 
at a slower rate under sequestration-level funding. Moreover, 
investment would account for nearly 60 percent of the total reduction 
at sequestration-level funding, further eroding the Department's 
ability to modernize and improve our joint force.
    I also believe the Department should be given more latitude, and 
some associated funding, to pursue rapid acquisition of capabilities 
based on emerging opportunities or needs, which tend to not fit 
conveniently inside our budget cycle. We tend to not submit these in 
our budget because, unfortunately, they are so vulnerable to marks.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
